No. 19-307

 

IN THE
Supreme Court of the Anited States

Stuart A. MCKEEVER,

Petitioner,
Vv.
WILLIAM P. BARR,
ATTORNEY GENERAL,
Respondent.

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Petitioner
contains 5,995 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 7, 2019.

fn %
Lashusin Actor
Ashwin P. Phatak
Counsel for Amicus Curiae
